           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

 FOLLOW-UP: THE SOCIAL SECURITY
  ADMINISTRATION CAN RECOVER
 MILLIONS IN MEDICARE PREMIUMS
   RELATED TO RETIREMENT OR
      DISABILITY PAYMENTS
       MADE AFTER DEATH

    August 2005   A-08-05-15112




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                       SOCIAL SECURITY
MEMORANDUM


Date:   August 24, 2005                                                             Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Follow-up: The Social Security Administration Can Recover Millions in Medicare
        Premiums Related to Retirement or Disability Payments Made After Death
        (A-08-05-15112)

        OBJECTIVE
        Our objective was to determine the status of corrective actions the Social Security
        Administration (SSA) had taken to address recommendations resulting from our
        July 2002 report, The Social Security Administration Can Recover Millions in Medicare
        Premiums Related to Retirement or Disability Payments Made After Death
        (A-08-02-12029).

        BACKGROUND
        Medicare is a Federal health insurance program for individuals receiving Title II
        retirement benefits or who have been receiving disability benefits for 2 years. If an
        individual elects Medicare Part B coverage (medical insurance), SSA withholds a
        premium from the beneficiary’s monthly benefit and forwards it to the Centers for
        Medicare and Medicaid Services (CMS)1 to pay for the insurance coverage. When SSA
        does not receive timely notification of a beneficiary’s death, it may continue to issue
        benefit payments and remit monthly Medicare premiums to CMS for months, or even
        years, after the month of death.

        Our July 2002 audit determined SSA had not recovered from CMS hundreds of millions
        of dollars in premiums the Agency withheld from Title II retirement or disability payments
        made after beneficiary deaths and remitted to CMS. This situation occurred because
        SSA did not have a process in place to ensure it systematically recovered Medicare
        premiums once it learned of a beneficiary’s death. We concluded that Title II Trust
        Funds would lose millions of dollars if SSA did not take a proactive role in recovering
        Medicare premiums. Accordingly, we encouraged SSA to expeditiously implement an


        1
          CMS is a Federal agency within the U. S. Department of Health and Human Services. CMS administers
        the Medicare program and works in partnership with the States to administer Medicaid, the State
        Children’s Health Insurance Program and health insurance portability standards.
Page 2 - The Commissioner


automated process whereby the Agency could recover Medicare premiums remitted to
CMS after a beneficiary’s death. SSA agreed to take the following actions:
•   Establish a committee of SSA and CMS officials to discuss procedures and practices
    for recovering Medicare premiums and work toward a joint resolution of the issue.
•   Develop and implement an automated process to ensure SSA systematically and
    routinely recovers Medicare premiums remitted to CMS after a beneficiary’s death.
•   Calculate the amount of unrecovered Medicare premiums SSA has withheld from
    deceased beneficiaries and remitted to CMS. We believe SSA should go back as
    far as data are available to determine this amount.
•   Analyze the practicality and feasibility of CMS transferring the unrecovered Medicare
    premiums to SSA.
•   If the transfer of unrecovered Medicare premiums is determined to be practical and
    feasible, establish an accounts receivable amount due from CMS for premiums
    already remitted to CMS and those SSA may continue to remit after beneficiaries’
    deaths until a system is in place to prevent such occurrences.

To determine the status of corrective actions SSA has taken, we interviewed officials
from SSA’s Office of the Deputy Commissioner for Finance, Assessment and
Management; reviewed communications between SSA and CMS; and verified SSA’s
automated process to recover Medicare premiums. See Appendix B for additional
information on our audit scope and methodology.

RESULTS OF REVIEW

We are encouraged to learn that SSA has taken corrective actions in response to our
prior report. Since our 2002 audit, SSA has met with CMS officials to discuss
procedures for recovering Medicare premiums and implemented an automated process
to ensure it systematically and routinely recovers those premiums. SSA estimated it
had not recovered about $2.7 billion in premiums and related interest since the
Medicare program’s inception in 1966. SSA requested that CMS repay the past
premiums and related interest, but CMS responded that it had no legal obligation to do
so. SSA disclosed its estimate of unrecovered Medicare premiums in the notes to its
Fiscal Year (FY) 2003 financial statements along with the intention of collecting the debt
in FY 2004. Although SSA had not recovered any funds remitted before implementing
an automated process to recover Medicare premiums, we believe SSA’s actions
adequately address our prior recommendations.
Page 3 - The Commissioner


Automated Process to Recover Medicare Premiums

In November 2002, officials from SSA’s Office of Disability and Income Security
Programs met with CMS executives to discuss procedures and practices for recovering
Medicare premiums and begin working toward a joint resolution of the issue. In
December 2002, SSA’s Office of Systems modified existing software and implemented
an automated process to ensure the Agency systematically and routinely recovered
Medicare premiums remitted to CMS after a beneficiary’s death. Specifically, the
automated process recognizes when SSA terminates a beneficiary’s monthly benefit
payment because of a retroactive death termination and transfers the premiums to
SSA.2

To test the accuracy of SSA’s automated process, we identified Medicare-entitled
beneficiary records with credit actions after death. We then randomly selected a
sample of beneficiary records to determine whether SSA had recovered Medicare
premiums paid to CMS after the beneficiaries’ deaths. We reviewed documentation for
the sampled beneficiary records and verified that the automated process accurately
applied the Medicare premiums to the Title II Trust Fund.

SSA’s Estimate of Unrecovered Medicare Premiums and Related Interest

To estimate the amount of unrecovered Medicare premiums SSA withheld from
deceased beneficiaries and remitted to CMS, SSA established a workgroup of officials
from the Offices of Finance, Assessment and Management; Policy; Systems; and the
Chief Actuary. SSA estimated the Agency had not recovered over $756 million in
Medicare premiums remitted to CMS from 1966 through 2002 after beneficiaries’
deaths. Because SSA did not recover the Medicare premiums, these officials estimated
the Agency also lost the opportunity to earn over $1.7 billion in related interest during
the same period. SSA shared its preliminary estimates with CMS in July 2003 and
provided a final estimate in May 2004.

Request that CMS Repay SSA for Unrecovered Medicare Premiums and Related
Interest

In November 2003, SSA sent a letter to the Secretaries of the Departments of Health
and Human Services (HHS) and Treasury advising them of the Agency’s intention to
seek recovery of Medicare premiums it remitted to CMS after a beneficiary’s death from
1966 through 2002, including lost interest. The letter also informed HHS and Treasury




2
 SSA administers monthly benefits, which include the Medicare Part B premium amount, from the
Old-Age, Survivors and Disability Insurance (OASDI) Trust Fund. Medicare premiums are then
accumulated in the Supplemental Medical Insurance (SMI) Trust Fund for payment to CMS. SSA
modified the daily accounting system software to reclaim Medicare Part B premiums made after death.
The system totals the amount of premiums for recovery, adjusts the SMI Trust Fund and refunds the
OASDI Trust Fund.
Page 4 - The Commissioner


of SSA’s plans to disclose the debt in the notes3 to its FY 2003 financial statements,
along with the intention of collecting the debt during FY 2004. In July 2004, CMS’ Office
of Financial Management responded that HHS’ Office of General Counsel advised them
that it has:

       …no legal obligation to repay the Social Security Administration (SSA) the
       alleged debt or related interest. This opinion is based on the fact that SSA has
       no legally enforceable claim against CMS because there is no statutory provision
       that expressly requires CMS to reimburse the Old Age and Survivors and
       Disability Insurance (OASDI) Trust Funds for prior amounts transferred to the
       Supplementary Medical Insurance (SMI) Trust Fund or for interest earned on
       amounts erroneously transferred to the SMI Trust Fund.4

To date, SSA has not recovered any of the funds it remitted to CMS after beneficiaries’
deaths from 1966 through December 2002.

CONCLUSION
We previously reported that SSA had not recovered hundreds of millions of dollars in
Medicare premiums remitted to CMS after a beneficiary’s death. As such, we
concluded that, if SSA did not take a proactive role in recovering Medicare premiums
paid after beneficiaries’ deaths, the Title II Trust Funds would lose millions of dollars in
the future, including the opportunity to earn interest. During our follow-up review, we
were able to verify that the automated process SSA implemented accurately recovers
Medicare premiums as death notifications are received. Although SSA has not
recovered Medicare premiums the Agency erroneously remitted to CMS from 1966
through 2002, we believe SSA’s actions adequately address our prior
recommendations.

AGENCY COMMENTS

SSA agreed with our audit findings. The full text of SSA’s comments is included in
Appendix C.




                                                      S
                                                      Patrick P. O’Carroll, Jr.




3
  SSA disclosed its estimate of unrecovered Medicare premiums in the notes to its FYs 2003 and 2004
financial statements.
4
 Medicare premiums withheld from Title II recipients are paid from the OASDI Trust Funds. The
Medicare premiums are then deposited into the SMI Trust Fund administered by CMS.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                      Appendix A

Acronyms
CMS     Centers for Medicare and Medicaid Services
FY      Fiscal Year
HHS     Department of Health and Human Services
OIG     Office of the Inspector General
OASDI   Old-Age, Survivors and Disability Insurance
SMI     Supplemental Medical Insurance
SSA     Social Security Administration
                                                                       Appendix B

Scope and Methodology
To accomplish our objective, we performed the following audit steps:

•   Interviewed officials from the Social Security Administration’s (SSA) Office of the
    Deputy Commissioner for Finance, Assessment and Management to determine the
    status of corrective actions taken to address recommendations resulting from our
    July 2002 report.

•   Reviewed communications between SSA and the Centers for Medicare and
    Medicaid Services (CMS) regarding estimates and return of unrecovered Medicare
    premiums.

•   Analyzed information provided by SSA regarding its automated process to recover
    Medicare premiums paid after a beneficiary’s death.

•   Identified beneficiary records with recent death terminations to test the accuracy of
    SSA’s automated process. Using one segment of the Master Beneficiary Record for
    February 2005 (updated as of March 18, 2005), we identified 140 Medicare-entitled
    beneficiary records with credit actions after death. We then randomly selected a
    sample of 50 beneficiary records to determine whether SSA had recovered the
    Medicare premiums paid to CMS after the beneficiaries’ deaths. We determined that
    SSA had recovered Medicare premiums for 45 beneficiaries. We also reviewed the
    Master Beneficiary Record and the Payment History Update System and determined
    that SSA did not remit Medicare premiums for the remaining five beneficiaries
    because SSA either received timely notification of the beneficiary’s death or a third
    party remitted the Medicare premium to CMS.

We performed our work in Birmingham, Alabama. We found the data used for this audit
were sufficiently reliable to meet our audit objective. The SSA entity reviewed was the
Office of the Deputy Commissioner for Finance, Assessment and Management. We
conducted our audit from November 2004 through May 2005 in accordance with
generally accepted government auditing standards.
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM                                                                        34314-24-1346


Date:      August 03, 2005                                                        Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye          /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report "The Social Security Administration Can
           Recover Millions in Medicare Premiums Related to Retirement or Disability Payments Made
           After Death" (A-08-05-15112)--INFORMATION

           We appreciate OIG’s efforts in conducting this review and agree with the findings. Further, we
           are pleased that the report acknowledges that SSA has developed and successfully implemented
           an automated process to systematically and routinely recover Medicare premiums withheld from
           retirement or disability payments made after a beneficiary's death and remitted to the Centers for
           Medicare and Medicaid Services.

           Let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at extension 54636.
                                                                       Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Rona Rustigian, Director, 410-965-8071

   Jeff Pounds, Audit Manager, 205-801-1606

Acknowledgments

In addition to those named above:

   Kathy Yawn, Senior Auditor

   Kimberly Beauchamp, Writer-Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification
Number A-08-05-15112.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                    Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                                Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
